VIRGINIA:
In the Court ofAppeals of Virginia on

Friday

the 21st day of December, 2018.

Charles Erskine Church,
against

Appellant,

Record No. 0264-18-2
Circuit Court Nos. CR17-F-2279 and CR17-F-2280

Commonwealth of Virginia,

Appellee.

From the Circuit Court of the City of Richmond
Per Curiam

This petition for appeal has been reviewed by a judge of this Court, to whom it was referred pursuant
to Code § 17.1-407(C), and is denied for the following reasons:
I. In a jury trial, appellant was convicted of sexual penetration with an object in violation of Code
§ 18.2-67.2(A)(1) and taking indecent liberties with a child in violation of Code § 18.2-370(A)(1). l
Appellant contends that the trial court erred in refusing to dismiss the charges or grant him a new trial
because the Commonwealth failed to meet its obligation under Brady v, Maryland. 373 U.S. 83 (1963), to
disclose material exculpatory evidence.
The Trial
Karyn Jackson was the mother of the victim, A.C., and appellant’s ex-wife. On the evening of
Sunday, November 1, 2015, Jackson took A.C. and her younger sister, J.C., to appellant’s apartment for
visitation. A.C. was eleven years old, and J.C. was five. A.C. and J.;,. were to remain in appellant’s custody
until Tuesday, November 3, 2015.
Jackson picked up A.C. after her basketball practice at about ; .;00 p.m. on November 3, 2015. On the
way home to their apartment, A.C. started crying. When Jackson ask,id what was wrong,. t

APR-7 2021
i

The jury acquitted appellant of a second charge of sexual pen etration with an obje 4^\^^^un.URT'U ~

o.

tried to stick it in her,” but she would not say more. A.C. said that she started crying on the way home and
a:
told her mother, “He put it in me.”
A.C. testified at trial that on the evening of Monday, November 2, 2015, she arid J.C. were alone in
7K

the apartment with appellant; appellant’s wife, Peesha Barot, was at work until around midnight. Consistent
with their nightly routine, A.C. texted appellant at about 7:00 p.m. to come upstairs to put the two girls to bed
in the room they shared. A.C. was wearing a pink tank top, shorts with stars and peace signs on them, and
»t

underwear.2 When appellant came upstairs, only A.C. was awake. Appellant said that “he was going to fuck
[A.C.].” A.C. asked to speak to appellant in his room because she did not like his language.
After A.C. and appellant moved to appellant’s bedroom, appe lant repeated that he was going to
“fuck” her. Appellant then removed his jeans and underwear and A.C.’s shorts and underwear. After putting
A.C. down on the bed, he put his “front private part” in her “front private part.” A.C. used a drawing to
identify the penis as the male “front private part.” A.C. stated that appellant was both on the outside and on
.the inside of A.C.’s “front private part” and that it hurt. Appellant ah p touched A.C.’s “butt” with his penis,
both on the outside and the inside. A.C. said that it hurt when he put .'is penis in her “butt” and made her feel
like she needed to “poop.” Appellant touched his tongue and fingers to A.C.’s front private part, and put his
mouth on her “boobs.” Appellant had A.C. put her mouth on his pen 3, and he ejaculated in her mouth!
Appellant went downstairs, then returned with a glass of wine . By that point, A.C. had returned to her
bedroom. Appellant went to A.C.’s room and said he was going to “luck” J.C. A.C. protested that appellant
should not because J.C. was so young and he would hurt her. To pro-^ct J.C., A.C. went back to appellant’s
bedroom with him. Appellant then “did everything the, second time.;’- Appellant threatened A.C. that if she
told anyone what had happened “one of us would wind up dead.” Appellant also said that “he was going to
fuck the shit out of me if I told.” A.C. knew appellant always kept hip gun in his room.

u
2 At trial, A.C. stated that she could not remember anything about the underwear she was wearing on
November 2, 2015.
-2-

During cross-examination of A.C., defense counsel asserted that she had not been advised in
discovery that A.C. claimed appellant had made “threats” about abusing J.C. and that this testimony was
i),

inconsistent with A.C.’s statements during her medical examination a nd forensic interview. The trial court
told the prosecutor to investigate whether A.C. had made prior inconsistent statements that had not been
revealed to the defense. The trial court indicated that it would address any such matters the following day,
and would permit further cross-examination of A.C. if needed. Upon'-further questioning by the defense, A.C.
admitted that she did not mention during the medical examination and forensic interview that the reason she
went to appellant’s bedroom a second time was to prevent appellant from harming J.C. A.C. stated that it was
difficult for her to answer the nurse examiner’s questions about what aad occurred and that she may have left
out some details because “it was just too gross.” The first day of trial concluded with A.C.’s testimony, but
she was not released as a witness.
On the morning of the second day of trial, and in response to the trial court’s direction that the
prosecutor ensure that all of A.C.’s prior inconsistent statements had Teen provided to the defense, the
prosecutor stated that A.C. mentioned during trial preparation that on the morning after the sexual abuse
appellant had asked the child if he could do it again. The prosecutor
-'Iso stated that before trial A.C. had not
,
positively identified as her own a pair of underwear the police found : a appellant’s home, but that this fact
was consistent with her trial testimony. The trial court offered to have A.C. resume the witness stand so that
appellant could cross-examine her further, but appellant declined this option.
The Commonwealth proved that after A.C. reported the abuse jto her mother on November 3, 2015,
Jackson took A .C. to VCU Medical Center. Susan Flowers and Beve ly Hoehing, pediatric nurse
practitioners at .the hospital, performed a sexual assault examination c n A.C. A.C. told Flowers that appellant
had threatened to kill her or anyone else who found out about the sex al assault. A.C. also told Flowers that
her father had subjected her to two episodes of sexual.conduct. Flowers and Hoehing completed a physical
evidence recovery kit (PERK) on A.C. A.C. was tearful during the examination, and she had pain near her .
rectum. Flowers noted redness to the area around A.C.,’s vulva and a ms, and bmising around the anus, which
-3-

.1
OJ

could have been caused by sexual assault. Hoehing swabbed both the-exterior and the interior of A.C.’s
rectum, and blood was detected there.
Briana Valentino conducted a forensic interview of A.C. at thd'Chi Id-Advocacy Center on November
4, 2015. A.C. told Valentino that appellant tried to stick his private ip her front private part but “it didn’t
work.” When asked if anything came out of appellant ’s private, A.C.:, said, “[N]ot that I know of.” A.C.
stated that she was forced to do something with her mouth to appellant’s body, but that she did not want to
talk about it. During the interview with Valentino, A.C. made a colorful drawing of the tank top and shorts
she was wearing on the night of the attack. On cross-examination, Valentino testified that A.C. did not
mention that there were two episodes of sexual conduct involving appellant and A.C. or that appellant had
threatened to do the same things to J.C.
' The police searched appellant’s Richmond apartment oh November 4, 2015. From a pile of clothing
on thedloor of the bathroom near the laundry hamper, Detective Stev n Jones seized a pair of Barbie
underwear, a pair of shorts colored with peace signs and stars, a pink, lank top, and a pair of men’s underwear.
The police seized the first three items of clothing because they had received information about the clothing
—A.C.-said-she-had-wornon-thenight-of-the-ineident^andthedeteetive—foundtheseitems-in-the-dirtyxlothes:”Jones stated the clothing he collected “matched the description of the clothing that the young lady was
wearing on the night of the incident.” The Barbie underwear, a child size eight, was in the laundry pile
directly beneath the shorts with the peace signs and stars. At the time of the incident, A.C. wore child size
eight underwear, and J.C. wore child size four underwear.
A DNA mixture profile was developed from the inside crotch area of the Barbie.underwear. Neither
appellant nor A.C. could be eliminated as the two contributors to the.DNA mixture. The Commonwealth’s
forensic analysfadmitted that a transfer of DNA could occur when clothes are combined together in a laundry
pile.
Dr. Phillip Danielson testified for the defense as an expert in mensic DNA analysis and recovery. He
characterized the DNA found on the Barbie underwear as trace DNA that contained a mixture of genetic
-4-

lo’

material from at least two people; Danielson opined that the presence of an allele that did not match A.C. or
ii
appellant made it likely that there was a third contributor in the mixture. Danielson stated that there was “a
. t

very good chance” that the Barbie underwear could have picked up DNA as a result of being deposited with
other laundry or in the washing process. Danielson further opined that, considering A.C.’s description of
sexual contact with appellant and the other surrounding circumstances, it was likely that detectable amounts
of DNA would have been deposited on her body.
Called as a defense witness, Barot testified that in the fall of 2015 appellant often drank heavily; his
behavior was “angry, erratic, loud, [and] intimidating” when he drank. In addition to being physically and
verbally abusive to Barot, appellant would “get in [A.C.’s] face and scream” when he had been drinking.
A.C. told appellant several times that she hated him and no longer wanted to live with him. Barot stated that
when she returned home from work at about midnight on November 2, 2015, she checked on A.C. and J.C.
At that time, A.C. did not appear to be crying, and Barot noticed no “ :ed flags” or anything out of the
ordinary to indicate that the child had been sexually abused.
Pretrial Discovery
During pretrial discovery, the Commonwealth provided appelant with the video recording of A.C.’s
interview with Valentino and a transcription of that video. The Commonwealth further provided appellant
with a copy of Flowers’ report regarding A.C.’s examination, including the statements A.C. made during the
. exam. In an email on June 16, 2017, the prosecutor advised defense counsel that during the assault
appellant’s tongue touched A.C.’s breasts and her “butt.” In addition by email on July 9, 2017, the
prosecutor advised appellant that A.C. had alleged that oral sex had k een involved in the incident and that
Barot had disclosed that A.C. showed no “red flags” to indicate abuso on the night of the incident.
Bradv Claims
Appellant alleges that the Commonwealth repeatedly failed to meet its disclosure obligations under
Brady. “There are three components of a true Bradv violation: The evidence at issue must be favorable to
the accused, either because it is exculpatory, or because it is impeach mg; tha t evidence must have been
-5r-

■■■£

);
suppressed by the State, either willfully or inadvertently; and prejudice must have ensued.” S trickier v.
c.\
Greene. 527 U.S. 263, 281-82 (1999). “The accused has the burden of establishing each of these three

T

components to prevail on a Brady claim.” Mercer v. Commonwealth. 66 Va. App. 139, 146 (2016) (quoting
Commonwealth v. Tuma, 285 Va. 629, 635 (2013)). Ultimately, “[t]be remedial relief to be granted by the
trial court following a discovery violation or upon the late disclosure of evidence is within the trial court’s
discretion and will not be disturbed on appeal unless plainly wrong.” Novak v. Commonwealth. 20 Va. App.
373, 389 (1995) (quoting Moreno v. Commonwealth; 10 Va. App. 4C)8, 420 (1990)).
Appellant presents his Brady claim in three parts. First, he alleges that the Commonwealth failed to
disclose, before trial, that A.C. could not identify the Barbie underwear as hers. Second, he contends that the
Commonwealth failed to timely disclose what he characterizes as A.C.’s prior inconsistent statements. Third, ■
he claims that the Commonwealth did not timely disclose that Barot r".ported that A.C. exhibited no “red
flags” of sexual abuse on the night of the incident. We address each rfaim in turn, noting that the due process
inquiry requires us to consider whether the evidence at issue was exculpatory on an item-by-item basis.
Lovitt v. Warden. 266 Va. 216, 245 (2003).
Appellant argues that A.C.’s inability to identify the Barbie m derwear was exculpatory because it
“affected the admissibility of the evidence itself and the DNA analysis done on the underwear.” As addressed
below, however, the underwear and the analysis were relevant and admissible even though A.C. did not
identify the garment as her own. Moreover, “[wjhether evidence is exculpatory and whether evidence is
admissible are discrete inquiries. That evidence is exculpatory and n ;ist be disclosed in discovery does not
automatically rnake such evidence admissible at trial, nor does its exculpatory status make it more worthy of
admission than other evidence.” Payne v. Commonwealth. 65 Va. A vp. 194, 215 n.17 (2015), aff d. 292 Va.
855 (2016). While appellant may have chosen to pursue a different t. jal strategy had he known that A.C.
•in

.n.
-6-

•p
.a

could not identify the underwear, “the mere possibility of an alternative trial strategy [that] might produce a
more beneficial result is not the proper test for a Brady violation.”3 Mercer. 66 Va. App. at 149.
Appellant maintains that the Commonwealth did not timely reveal A.C.’s claim that oral sex was
involved in the incidents, her statement that she acquiesced to the second episode of sexual abuse to protect
her sister from appellant, and that A.C. claimed that appellant asked her for sex again the morning after the
incident. “Late disclosure does not take on constitutional proportions unless an accused is prejudiced by the
;I
discovery violations depriving him of a fair trial.” Moreno. 10 Va. App. at 417. “Brady is not violated, as a
matter of law, when impeachment evidence is made ‘“available to [a’idefendant [] during trial’” if the
defendant has ‘sufficient time to make use of [it] at trial.’” Tuma. 285 Va. at 635 (quoting Read v. Virginia
State Bar. 233 Va. 560, 564-65 (1987)). “‘The point in the trial wher a disclosure is made ... is not in itself
determinative of timeliness[,]” even if the witness in question has completed her testimony, as “the trial itself
[i]s far from over.’” Id. at 636 (quoting United States v. Darwin. 757.-F.2d 1193, 1201 (IlthCir. 1985)).
All of A.C.’s statements that appellant characterizes as prior inconsistent statements were disclosed to
him before or during trial.4 The Commonwealth provided information about the oral sex allegation to the
defense by email twice, on June 16 and July 9, 2017, thus allowing appellant to develop his trial strategy and
use the information to his benefit. See id. at 637. On the second day of trial, the trial court provided
appellant with the opportunity to cross-examine A.C. further regarding this, as well as whether A.C.
1

3 In any event, the fact that A.C. did not identify the Barbie underwear prior to trial was not
impeachment evidence because it was consistent with her trial testimony that she could not remember
anything about the underwear she wore on the night of the incident, lor has appellant demonstrated how that
circumstance was exculpatory. A.C.’s inability to identify the Barbie underwear had no tendency to prove
that appellant was not guilty of the charged offenses. “The fact that a dditional information that might have
been used in the examination of a witness is discovered after the witness testifies does not render the
examination infirm.” Massey v. Commonwealth. 67 .Va. App. 108, 179 (2016). Having concluded the
evidence was not exculpatory or impeaching, “we are not required to consider the issue of the'materiality of
that evidence.” Lovitt. 266 Va. at 245.
4 Notwithstanding the timeliness of the disclosures, appellant .as failed to demonstrate how A.C.’s
acquiescence to the second episode of sex to protect J.C., or A.C.’s c ;im that appellant asked her for sex on
the morning after the crimes, was exculpatory or could have been used to impeach A.C.
-7-

it:

permitted a second episode of sexual abuse to protect J.C. and that A.C. claimed that appellant asked her for
*-•

sex again on the morning of November 3, 2015. Appellant did not extercise the option to recall A.C., who had
1
*

*>

"

not been released as a witness, nor did he request a continuance to review that evidence in light of his trial
strategy. Thus, appellant had the opportunity to make effective use of the evidence of the statements at trial,
and there was no Brady violation as a matter of law. Id.
Finally, regarding Barot’s report of A.C.’s demeanor on the night of the incident, it is undisputed that
the Commonwealth disclosed this information by email two days beft>fe trial: In fact, appellant called Barot
as a defense witness. Barot testified that she had noted nothing amiss when she checked on A.C. upon
returning home from work at around midnight on November 2, 2015. Thus, the evidence was not suppressed,
because the Commonwealth disclosed it to appellant before trial, and he used it to his benefit. Id.
Not only has appellant failed to establish that the Commonwealth suppressed Brady material, he also
has not demonstrated resulting prejudice. To prove prejudice in the Brady context, a defendant must show
that ‘“there is a reasonable probability’ that the result of the trial would have been different if the suppressed
[evidence] had been disclosed to the defense.” Strickler, 527 U.S. at 289. “The question is not whether the
defendant would more likely than not have received a different verdict with the evidence, but whether in its
absence he received a fair trial, understood as a trial resulting in a verdict worthy of confidence.” Id. at
289-90 (quoting Kyles v. Whitlev. 514 U.S. 419, 434 (1995)).
In this case, “[confidence in the verdict remains intact” notwithstanding appellant’s Brady claims.
Mercer, 66 Va. App. at 151. Although appellant challenged A.C.’s testimony with incomplete or inconsistent
statements that she had made, the jury credited A.C.’s clear account cf the sexual abuse appellant inflicted.
She reported the crimes to her mother as soon as she left appellant’s custody. A physical examination of A.C.
revealed injury that was consistent with sexual abuse. The DNA evidence connected appellant to A.C. and
corroborated her testimony. We find no indication that the timing of the Commonwealth’s disclosures denied
appellant a fair trial, and the trial court did not err in denying appellant’s motion to dismiss or for a new trial
on Brady grounds.
-8-

C!

■K

h
II. Appellant argues that the trial court erred in admitting the Barbie underwear, and the related DNA
analysis, into evidence because it was irrelevant and lacked foundation. On appeal, this Court “reviews a trial
court’s ruling admitting or excluding evidence for abuse of discretion.” Payne v. Commonwealth. 292 Va.
855,866 (2016).
‘“Relevant evidence’ means evidence having any tendency to make the existence of any fact in issue
*

’

t

more probable or less probable than it would be without the evidence.” Va. R. Evid. 2:401. “The scope of
......

^

relevant evidence in Virginia is quite broad, as ‘[ejvery fact, however remote or insignificant, that tends to
establish the probability or improbability of a fact in issue is relevant. ”’ Commonwealth v. Proffitt, 292 Va.
626, 634 (2016) (quoting Virginia Elec. & Power Co. v. Dungee. 258 Va. 235, 260 (1999)) (alteration in
original).
The offenses with which appellant was charged occurred at appellant’s home on the night of
November 2, 2015. The Barbie underwear was found in a pile of laundry in appellant’s home on November
4, 2015. The underwear, which was A.C.’s size, was directly beneath shorts that matched A.C.’s description
of the pants she wore on the night of the crimes. A mixture of genetio material to which both appellant and
A.C. contributed was on the crotch of the underwear. These facts and circumstances tended to prove that
A.C. had worn the underwear and that appellant’s DNA had been transferred to her body. Thus, the
underwear, and the related DNA analysis, constituted relevant evidence to corroborate A.C.’s testimony that
appellant sexually assaulted her.
Appellant argues that the Commonwealth provided “no foundation that the underwear was the same
underwear that the complainant wore on the night of the alleged assa;dt.” “A proper foundation must be laid
for the introduction of all evidence. The burden is upon the party offering real evidence to show with
reasonable certainty that there has been no alteration or substitution qf it.” Sabo v. Commonwealth. 38
Va. App. 63, 79 (2002) (quoting Horsley v. Commonwealth. 2 Va. A .'?• 335, 338 (1986)). But the attendant
circumstances provided the requisite foundation, considering the size, of the underwear and its location in the
laundry pile with A.C. ’s other clothing that she already recalled wear ng on the night of the assault. The
-9-

L-.

l[

record contains no suggestion, and appellant does not argue, that there was any alteration or substitution of
the underwear seized by the police and tested at the state laboratory. Having determined that the underwear
was relevant and supported by a proper foundation, we find no abuse of discretion in the trial court’s decision
to admit the underwear and the DNA test results into evidence.
III. Appellant contends that the trial court erred in denying his motion to dismiss the charges against
him based upon prosecutorial vindictiveness. Appellant maintains that the trial court’s ruling violated his
Fourteenth Amendment right to due process. “We review a trial courts factual fmdings on prosecutorial
vindictiveness for plain error, but we review its legal analysis de novo.” Barrett v. Commonwealth. 41
Va. App. 377, 392 (2003), affd. 268 Va. 170 (2004).
On January 6, 2016, a City of Richmond grand j ury indicted appellant for rape of a child under the age
of thirteen and two counts of sodomy of a child under the age of thirteen. If convicted under the 2016
indictments, appellant faced a sentence of five years to life imprisonment for each charge. Code
§§ 18.2-61(B) and 18.2-67.2(B). The trial court granted the Commonwealth’s motion to nolle prosequi the
charges on June 21, 2016, because appellant faced federal charges involving child pornography. After a
federal judge granted appellant’s motion to suppress evidence in that case, the federal charges against
appellant were dismissed. In May of 2017, a City of Richmond grand, jury indicted appellant upon charges of
sexual penetration with an object and taking indecent liberties. The charges included an allegation that
appellant, then over the age of eighteen, committed sexual penetration with an object upon a child under
thirteen, which carried a penalty of mandatory life imprisonment. Cc-de § 18.2-67.2(B)(2).
Appella nt moved to dismiss the charges on grounds of prosecutorial vindictiveness. At a hearing on
appellant’s motion to dismiss, the prosecutor explained that the 2016. charges were nolleprosequied because
of procedural challenges inherent in pursuing state and federal charges simultaneously. In addition, the
prosecutor who assumed responsibility for the case in 2017 believed A was appropriate to charge and seek a
mandatory life sentence under the circumstances. The trial court fou. d that, after the federal judge granted
the motion to suppress and the charges were dismissed, the Common wealth's decision to charge appellant
-10.1

i,;.

■ v

with crimes involving a greater penalty upon conviction did not demcihstrate vindictiveness, and denied
appellant’s motion to dismiss.
“It is well established that the choice of offenses for which a KHminah defendant will be charged is
within the discretion of the Commonwealth's Attorney.” Kauffmann v. Commonwealth. 8 Va. App. 400, 410
(1989). Indeed, “the institution of criminal charges, as well as their order and timing, are matters of
prosecutorial discretion.” Bradshaw v. Commonwealth. 228 Va. 484.'492 019841. Nevertheless,
prosecutorial discretion “is not ‘unfettered.’ Selectivity in the enforcement of criminal laws is . . . subject to
constitutional constraints.” Wavte v. United States. 470 U.S. 598, 608 (1985). Particularly, “the decision to
prosecute may not be ‘“deliberately based upon’” . . . the exercise of protected statutory and constitutional
rights . . . .” Id. (quoting Bordenkircher v. Haves. 434 U.S. 357. 364 -1978)).
To punish a person because he has done what the law plainly allows him to do
is a due process violation “of the most basic sort” .... For while an individual
certainly may be penalized for violating the law, he juct as certainly may not be
punished for exercising a protected statutory or constitutional right.
United States v, Goodwin, 457 U.S. 368, 372 (1982) (quoting Bordenkircher. 434 U.S. at 363).
In Goodwin, the Court held that no presumption of vindictiveness arose where the prosecution sought
and obtained greater charges after plea negotiations failed and the defendant moved for a jury trial. Id at 384.
The Court found that “[tjhere is good reason to be cautious before adopting an inflexible presumption of
prosecutorial vindictiveness in a pretrial setting.” Id at 381. “In the course of preparing a case for trial, the
prosecutor may uncover additional information that suggests a basis for further prosecution or he simply may
come to realize that information possessed by the State has a broader significance.” Id. The Court
recognized that pre-trial rights and procedural protections “inevitably impose some ‘burden[s]’” on
prosecutors, but found it unlikely that prosecutors would “seek to penalize and to deter” such routine trial.
practices. Id Thus, “[a] prosecutor should remain free before trial to exercise the broad discretion entrusted
to him to determine the extent of the societal interest in prosecution. .An initial decision should not freeze
future conduct.” Id. at 382.
-11!v

:>

We find that no presumption of vindictiveness arose in this case where, prior to any trial, the
Commonwealth sought charges involving a greater potential punishment merely because a federal court
granted appellant’s motion to suppress and the federal charges were dismissed. The 2016 indictments were
nolle prosequied to permit the federal charges to proceed. Independent from the federal proceeding, the
Commonwealth, in the exercise of reasonable discretion, obtained new indictments in 2017. We will not
presume that the prosecutor intended to punish appellant with the increased penalties in the 2017 indictments
k
because appellant obtained suppression of evidence in federal court.
Nonetheless, “a defendant in an appropriate case might prove objectively that the prosecutor’s
charging decision was motivated by a desire to punish him for doing something that the law plainly allowed
him to do.” Id. at 384. “A finding of actual vindictiveness occurs ‘only in a rare case’ as it would require a
defendant to produce direct evidence, such as evidence of a vindictive statement made by a prosecutor.”
Barrett, 41 Va. App. at 396 (quoting Goodwin. 457 U.S. at 380-81); see also Battle v. Commonwealth. 12
Va. App. 624, 630 (1991) (finding actual vindictiveness where prosec utor threatened, and was granted, a
nolle prosequi for the stated purpose of increasing the prosecutorial risk to defendant and forcing him to
relinquish an advantage gained by a favorable decision on his motion to suppress evidence).
Appellant produced no evidence of actual vindictiveness by the prosecutor in obtaining the 2017
indictments. The trial court credited the prosecutor’s explanation for why that the 2016 indictments were
nolle prosequied and new indictments were sought in 2017. It found ' here was no indication of prosecutorial
vindictiveness in the procedure. In the absence of affirmative eviden ce to the contrary, we find no basis to
disturb this finding or to conclude that the trial court erred in denying.appellant’s motion to dismiss.
IV. and V. Appellant challenges the sufficiency of the evidence to support his convictions of sexual
penetration with an object and taking indecent liberties with a child. When reviewing a challenge to the
sufficiency of the evidence, this Court considers the evidence in the .light most favorable to the
Commonwealth, the prevailing party below, and reverses the judgment of the trial court only when its
decision is plainly wrong or without evidence to support it. See Farh umand v. Commonwealth. 288 Va.
-12-

•It

V
338, 351 (2014): “[I]f there is evidence to support the conviction, the-'reviewing court is not permitted to
substitute its judgment, even if its view of the evidence might differ from the conclusions reached by the
finder of fact at trial.” Linnon v. Commonwealth. 287 Va. 92, 98 (20T4) (quoting Lawlor v. Commonwealth.
285 Va. 187, 224 (2013)).
Appellant maintains that A.C.’s testimony was inconsistent, inherently incredible, and unworthy of
belief. However, “determining the credibility of the witnesses and the weight afforded the testimony of those
witnesses are matters left to the trier of fact.” Parham v. Commonwealth. 64 Va. App. 560, 565 (2015). “To
be ‘incredible,’ testimony ‘must be either so manifestly false that reasonable men ought not to believe it, or it
must be shown to be false by objects or things as to the existence and meaning of which reasonable men
should not differ.’” Juniper v. Commonwealth. 271 Va. 362, 415 (2006) (quoting Cardwell v.
Commonwealth. 209 Va. 412, 414 (1968)). “The mere fact that a whness may have . . . given inconsistent
statements during the investigation of a crime does not necessarily render the testimony unworthy of belief.”
Id. “This circumstance is appropriately weighed as part of the entire issue of witness credibility, which is left
to the [fact finder] to determine.” Id.; see also Fordham v. Commonwealth, 13 Va. App. 235, 240 (1991)
(“Prior inconsistent testimony is a factor in determining the credibility of a witness, but it does not
automatically render the witness’ testimony incredible.”). As long as a witness testifies to facts which, if true,
are sufficient to sustain a guilty verdict, “then the fact that the witness’ credit is impeached by contradictory
statements affects only the witness’ credibility .... If the trier of the facts sees fit to base the verdict upon
that testimony there can be no relief in the appellate court.” Smith v, Commonwealth. 56 Va. App. 711,
718-19 (2010) (quoting Swanson v. Commonwealth. 8 Va. App. 376-.-379 (1989)).
Appellant also argues that the Commonwealth failed to prove [hat appellant penetrated A.C.’s anus
with his penis. To sustain appellant’s conviction under Code § 18.2- '7.2(A)(1), the Commonwealth was
required to prove that he penetrated A.C.’s anus with any “inanimate ,or animate object.” Code
§ 18.2-67.2(A).

-13-

t.
&■

A.C. testified that on the night of November 2; 2015, while appellant’s wife was away and J.C. was
asleep, appellant subjected her to two episodes of sexual abuse involving multiple sexual acts. During these
events, appellant’s “front private part,” which she identified as a penis, was both outside and inside her
“butt,” and made her feel like she needed to “poop.” A.C.’s description of the painful assault was consistent
with anal penetration. When examined by Flowers the next day, A.C. had pain in her rectum, as well as
bruising and redness that could have been caused by blunt force trauma. Moreover, blood was found on the
exterior and interior of A.C.’s rectum, which was not a normal finding and could have been caused by sexual
abuse. After the incidents, appellant told A.C. not to tell and threatened her with violence if she did. A.C.
made her initial report when she was safe with her mother, and she did not want to return to the home where
appellant had abused her. From these facts and circumstances, a reasonable finder of fact could find beyond a

,•

reasonable doubt that appellant penetrated A.C.’s anus with an object and that he was guilty of sexual
penetration with an object and taking indecent liberties.
This order is final for purposes of appeal unless, within fourteen days from the date of this order, there
are further proceedings pursuant to Code § 17.1-407(D) and Rule 5A 15(a) or 5A: 15A(a), as appropriate. If

..
I

appellant files a demand for consideration by a three-judge panel, pursuant to those rules the demand shall
include a statement identifying how this order is in error.

•

It is ordered that the Commonwealth recover of the appellant the costs in this Court, which costs shall
include a fee of $400 for services rendered by the Public Defender on this appeal, in addition to counsel’s
1

necessary direct out-of-pocket expenses, and the costs in the trial cou~t.

.

This Court’s records reflect that the Office of the Public Defender for the City of Richmond is counsel
of record for appellant in this matter.

-14-

■

:

!}

Costs due the Commonwealth
by appellant in Court of
. Appeals of Virginia:

2

Public Defender $400.00 plus costs and expenses
A Copy,
Teste:
’

Cynthia L. McCoy, Clerk
By:

IvfyrfwURlii
Deputy Clerk

2

!

2

2

-152

VIRGINIA:
In the Court ofAppeals of‘Virginia on

Friday

the 8th day of March, 2019.

. Charles Erskine Church,
.against

Appellant,

Record No. 0264-18-2
Circuit Court Nos. CR17-F-2279 and CR17-F-2280

Commonwealth of Virginia,

Appellee.
From the Circuit Court of the City of Richmond
Before Judges Humphreys, Petty and Chafin

This petition for appeal is granted in part and denied in part. And an appeal is awarded to the
petitioner from a judgment of the Circuit Court of the City of Richmond, dated February 2, 2018, with respect
to the following assignments of error:
I; The trial court erred in denying Mr. Church’s motion to dismiss, or for a new
trial, based on violations of his 14th Amendment rights to exculpatory
evidence as specified in Brady v. Maryland.
II. The trial court erred in admitting Commonwealth’s Exhibit 3, the:
underwear, and the related DNA evidence and testimony.
No bond is required. The clerk is directed to certify this action to the trial court and to all counsel of
record.
Pursuant to Rule 5A:25, an appendix is required in this appeal and shall be filed by the appellant at the
time of the filing of the opening brief.
The remainder of the petition for appeal in this case remains denied for the reasons set forth in the
order of this Court dated December 21, 2018.

This Court’s records reflect that the Office of the Public Defender for the City of Richmond is counsel
of record for appellant in this matter.
A Copy,
Teste:
Cynthia L. McCoy, Clerk
By:
Deputy Clerk

r’\.

-2-

CERTIFICATE OF CLERK

I, Cynthia L. McCoy, Clerk of the Court of Appeals of Virginia, do hereby certify that on March 8,
2019 an appeal was awarded as described in the order to which this certificate is appended. A copy of this
certificate and a copy of the order to which it is appended were this day mailed to the trial court indicated in
the order and to all counsel of record.
Given under my hand this 8th day of March, 2019,

Cynthia L. McCoy, Clerk
By:
Deputy Clerk

-3-

COURT OF APPEALS OF VIRGINIA

Present: Chief Judge Decker, Judges Petty and Huff
Argued at Richmond, Virginia.

P

1^

n
M

s
fi.

CHARLES ERSKINE CHURCH
v.

Record No. 0264-18-2

OPINION BY
CHIEF JUDGE MARLA GRAFF DECKER
NOVEMBER 12,2019

COMMONWEALTH OF VIRGINIA

FROM THE CIRCUIT COURT OF THE CITY OF RICHMOND
Walter W. Stout, III, Judge Designate
Lauren Whitley, Deputy Public Defender, for appellant.
A. Anne Lloyd, Assistant Attorney General (Mark R. Herring,
Attorney General; David M. Uberman, Assistant Attorney General,
on brief), for appellee.

Charles Erskine Church appeals his convictions for object sexual penetration of a child
and taking indecent liberties with a child, in violation of Code §§ 18.2-67.2(A)(1) and
18.2-370(A)(l).’ He argues that the trial court erred by denying his motion to dismiss due to a
failure to timely disclose exculpatory evidence. The appellant also contends that the trial court
erroneously admitted a pair of girl’s underwear into evidence, along with related DNA evidence
and testimony. For the reasons that follow, we affirm the convictions.

The record was sealed by the circuit court. Nevertheless, this appeal necessitates
unsealing relevant portions of the record in order to resolve the issues raised by the appellant.
Consequently, “[t]o the extent that we mention facts found only in the sealed record, we unseal
only those specific facts, finding them relevant to our decision in this case. The remainder of the
previously sealed record remains sealed.” Du v. Commonwealth. 292 Va. 555, 560 n.3 (2017).

I. BACKGROUND2
The appellant was tried by a jury and convicted for sexually abusing his daughter (the
victim).3
On the evening of Sunday, November 1, 2015, the victim’s mother took her and her
younger sister to the appellant’s apartment. At the time, the victim was eleven years old, and her
sister was six. The children were scheduled to remain in the appellant’s custody until Tuesday,
November 3, 2015.
On Tuesday evening, the mother picked up the victim from basketball practice. During
_ the drive home, the victim started crying. When her mother asked what was wrong, she said that
“he tried to stick it in her,” but she would not say more.
After the victim told her mother about the abuse, the mother took her to a hospital. Two
pediatric nurse practitioners performed a sexual assault examination on her. During the exam
the victim identified the appellant as the person who hurt her. There was redness to the area
around the victim’s vulva and anus and bruising around the anus. She was tearful and had pain
near her rectum.
The next day, an employee of the Child Advocacy Center conducted a forensic interview
of the victim. She told the interviewer that the appellant “tried to stick his private in her front
private part” but “it didn’t work.”, She also said that she did not know if anything “came out of’
the appellant’s “private.” Further, the victim revealed that she was forced to do “something”
with her mouth to the appellant’s body but she did not want to talk about it. During the

.2 Under the applicable standard of review, we view the evidence in the light most
favorable to the Commonwealth, as the prevailing party below. See, e.g.. Riner v.
Commonwealth. 268 Va. 296, 303 (2004).
3 This opinion refers to the appellant’s daughter as “the victim,” her mother, as “the
mother,” and the appellant’s wife at the time of the offenses as “the stepmother.”
-2-

interview, the victim made a colorful drawing of the tank top and shorts she had worn on the
night of the attack.
The police searched the appellant’s apartment on November 4, 2015, the day after the
victim told her mother about the crimes. Detective Steven Jones, with the Richmond Police
Department, seized a pair of shorts with peace signs and stars printed on them, a pink tank top, a
pair of girl’s underwear, and a pair of men’s underwear. The items were found together in a pile
of clothing on the floor of the bathroom near the laundry hamper. The shorts and tank top
matched the description of the outfit that the victim said she wore on the night of the offenses. A
pair of girl’s underwear, a child’s size eight, was in the laundry pile directly beneath the shorts.4
At the time of the incident, the victim wore child’s size eight underwear, and her sister wore a
child’s size four.
At the appellant’s jury trial, forensic experts testified regarding DNA evidence.
Biological matter was collected from the inside crotch area of the girl’s underwear. From that
. material, a DNA mixture profile was developed. The Commonwealth’s forensic experts opined
that the genetic material was from two people. Neither the appellant nor the victim could be
eliminated as the contributors to the DNA mixture.5
A defense expert in forensic DNA analysis and recovery characterized the genetic
material found on the girl’s underwear as trace DNA. He opined that the presence of an allele
that did not match the victim or the appellant made it likely that a third person contributed to the
mixture. He also stated that there was “a very good chance” that the girl’s underwear could have
“picked up” DNA as a result of being deposited with other dirty laundry.

4 The trial court admitted the underwear into evidence over the appellant’s objection.
5 One expert explained the likelihood of the appellant and the victim not being the
contributors and the DNA coincidentally matching a random person was between one in 140
million and one in 1.3 trillion.
-3-

The victim testified at trial. She explained that on the evening of Monday, November 2,
2015, she and her sister were alone in the apartment with the appellant. The two girls went to
bed, and the victim’s sister fell asleep. Around 7:00 p.m., the appellant entered the bedroom and
told the victim that “he was going to fuck” her.
According to the victim, after she and the appellant moved to his bedroom, he removed
her shorts and underwear and then his jeans and underwear. After he put the victim down on the
bed, he put his “front private part” in her “front private part.” The victim testified that the
appellant’s “private part” was on both the outside and the inside of her “front private part” and
that it hurt. She also said that she felt pain when the appellant touched the inside and outside of
her “butt” with his penis. She described the pressure as feeling like she needed to “poop.”
According to the victim, at some point the appellant touched his tongue and fingers to her “front
private part” and put his mouth on her breasts. He also put her mouth on his penis and
“something came out” into her mouth.
The victim explained that after these assaults she went back to her bedroom. A short
while later, the appellant returned and said he was going to “fuck” her sister. To protect her
sister, the victim went back to the appellant’s bedroom with him, and he “did everything again.”
He threatened the victim not to tell anyone what had happened or “one of [them] would wind up
dead.” She knew that the appellant always kept his gun in his room.
The victim was asked about what she wore on the night of the attack. She testified that
on that night, she wore shorts with peace signs and stars printed on them, a pink tank top, and
underwear. She could not describe her underwear.
During cross-examination of the victim, defense counsel raised an objection concerning
discovery. Out of the presence of the jury, counsel asserted that the Commonwealth had not
disclosed that the victim claimed the appellant had threatened to abuse her sister and that this
-4-

testimony was inconsistent with the victim’s statements during her medical examination and
forensic interview. The trial court instructed the prosecutor to investigate whether the victim had
made prior inconsistent statements that had not been revealed to the defense. The court indicated
that it would address any such matters the following day. After the discussion, the appellant
finished cross-examining the victim, but the court did not release her as a witness.
On the morning of the second day of trial, the prosecutor reported that during trial
preparation the victim mentioned that on the morning after the sexual abuse, the appellant had
asked her if he “could do it again.” The prosecutor also explained that before trial, the victim
had not positively identified the girl’s underwear as her own. In response, the trial court offered
to have the victim retake the witness stand so that the appellant could question her further, but
the appellant declined. Instead, he made a motion to dismiss the charges based on the late
disclosure of exculpatory evidence. In the alternative, the appellant asked for a new trial. The
court denied the motions.
The stepmother, who was a defense witness, testified that when she returned home from
work at about midnight on November 2, 2015, she checked on the victim and her sister. At that
time, the victim did not appear to be crying, and the stepmother did not notice anything out of the
ordinary.
The jury found the appellant guilty of object sexual penetration of a child in violation of
Code § 18.2-67.2(A)(1) and taking indecent liberties with a child in violation of Code
§ 18.2-370(A)(l).6 The trial court imposed the jury’s sentence of a life term of imprisonment for
object sexual penetration of a child and one year for the indecent liberties offense, with the court
suspending that year.

6 The jury found the appellant not guilty of sodomy with a child and a second count of
object sexual penetration of a child.
-5-

II. ANALYSIS
The appellant argues that the trial court erred in refusing to dismiss the charges or grant
him a new trial because the Commonwealth failed to meet its obligation under Brady v.
Maryland, 373 U.S. 83 (1963), to disclose material exculpatory evidence. He also contends that
the trial court erred in admitting the girl’s underwear and the related DNA analysis and
testimony into evidence.
A. Brady Claims
In reviewing the denial of a Brady motion, the trial court’s factual findings will not be
disturbed absent clear error. See Walker v. Kelly, 589 F.3d 127, 140 (4th Cir. 2009). In ...... .
contrast, we review the trial court’s legal conclusions de novo. See id.
Under Brady, due process requires that the prosecution disclose evidence favorable to the
accused that is material to guilt or punishment. Commonwealth v. Tuma, 285 Va. 629, 634
('2013'); see Robinson v. Commonwealth. 231 Va. 142, 150(1986). However, Brady does not
provide a general right to discovery in criminal cases. Tuma. 285 Va. at 635.
A Brady violation has three components. First, the prosecution must have suppressed the
evidence, either purposefully or inadvertently. Id. at 634. Second, the evidence at issue “must
be ‘favorable to the accused, either because it is exculpatory, or because it is impeaching.’” Id.
(quoting Skinner v. Switzer, 562 U.S. 521, 536 (2011)). Third, the evidence must be “material”
under Brady, meaning “there is a reasonable probability that, had the evidence been disclosed,
the result of the proceeding would have been different.” Id. at 634-35 (quoting Smith v. Cain,
565 U.S. 73, 75 (2012)); see also Massey v. Commonwealth, 67 Va. App. 108, 125 (2016)
(describing the third prong as whether the accused was prejudiced). “The accused has the burden
of establishing each of these three components to prevail on a Brady claim.” Mercer v.
Commonwealth, 66 Va. App. 139, 146 (2016) (quoting Tuma, 285 Va. at 635).
-6-

The appellant argues that the Commonwealth belatedly disclosed three types of evidence
in violation of Brady. First, he alleges that the Commonwealth failed to disclose before trial that
the victim could not identify the girl’s underwear as the pair she wore on the night of the
offenses or as hers. Second, he contends that the Commonwealth suppressed the victim’s “prior
inconsistent statements.” Third, he argues that the Commonwealth did not timely disclose that
the stepmother reported that the victim exhibited no “red flags” of sexual abuse on the night of
the incident. For the reasons that follow, we conclude that the appellant has failed to
demonstrate that his due process rights as set forth in Brady were violated.
1. Inability to Identify Underwear
The appellant suggests that the victim’s inability to specifically identify the underwear
was exculpatory because it “related to the credibility and value of the DNA evidence.” He also
contends that it was exculpatory because it “undermined the admissibility of the underwear and
the DNA evidence.” Further, the appellant contends that this evidence was exculpatory because
it “challenged the credibility” of the investigation and if he had known about this problem, he
“would have conducted his own investigation into the lack of identification of the underwear.”
We are unpersuaded that the facts that the victim could not remember wearing the
underwear in question on the night of the offenses or whether it belonged td'her were somehow
favorable to the appellant. Other evidence in the record sufficiently established that she wore
them on the night of the offenses. The police detective found the underwear directly underneath
the shorts that the victim wore that night and described in detail. Viewing the record in the light
most favorable to the Commonwealth, the victim’s DNA was on the inside crotch of the
underwear. In addition, evidence established that the victim wore size eight underwear, the same
size as the underwear at issue. Although the appellant suggests on brief that he might have been
able to prove that the underwear belonged to the victim’s sister, she wore size four underwear.
-7-

For these reasons, we hold that the victim’s inability to identify the underwear was not
exculpatory. See, e.g.. United States v. Bartko. 728 F.3d 327, 338 (4th Cir. 2013) (“Evidence is
‘exculpatory’ and ‘favorable’ if it ‘may make the difference between conviction and acquittal’
had it been ‘disclosed and used effectively.’” (quoting United States v. Wilson. 624 F.3d 640,
661 (4th Cir. 2010))).
Finally, the appellant suggests that the evidence was exculpatory because if known, he
would have changed his pre-trial and trial strategies. However, “the mere possibility that an
alternate trial strategy might [have] produce[d] a more beneficial result is not the proper test for a
Brady violation.”7 Mercer, 66 Va. App. at 149. Ilere, as in Mercer, the appellant’s theory that
the evidence would have provided the basis for different legal strategies before and during trial
does not provide a basis for a valid Brady claim. Id.
For these reasons, the facts that the victim could not specifically identify the underwear
as hers or as the pair that she wore on the night of the offenses were not exculpatory.
Consequently, this evidence does not provide the basis for a valid challenge under Brady.8

7 The appellant also contends that the Commonwealth affirmatively represented before
trial that the victim had positively identified the underwear. To the extent that this argument
relates to the Brady prong that the evidence must be “favorable” to the accused, we briefly
address it. The appellant submits that the certificate of analysis contains the affirmative
representation that the victim identified the underwear as hers. This factual interpretation,
however, is undercut by the record. The certificate of analysis describes the underwear as
belonging to the victim. It does not provide how the underwear was identified as such and falls
far short of an affirmative representation that the victim identified it.
8

Because we find that the appellant failed to meet his burden to prove that the evidence
was favorable to him, we do not address the other two prongs of the Brady analysis. See, e.g..
Tuma. 285 Va. at 635 (holding that the defendant’s Brady claim failed on one prong and
declining to conduct any further Brady analysis). For this reason, we also do not address the
Commonwealth’s discussion of the verdict being “worthy of confidence,” as this term relates to
the Brady component of materiality or prejudice. See Hicks v. Dir.. Dep’t of Corr.. 289 Va. 288,
299 (2015); Tuma. 285 Va. at 640 (Lemons, J., concurring).
-8-

2. Inconsistencies in the Victim’s Statements
The appellant maintains that the Commonwealth did not timely reveal the victim’s claims
that (1) the incidents included oral sex, (2) the appellant had threatened to sexually abuse her
sister, and (3) the appellant asked her for sex again the morning after the incident.
“Brady is not violated, as a matter of law, when impeachment evidence is made
‘“available to [a] defendant[] during trial’” if the defendant has ‘sufficient time to make use of
[it] at trial.’” Tuma, 285 Va. at 635 (alterations in original) (quoting Read v. Va. State Bar. 233
Va. 560, 564-65 (1987)). Further, “[t]he point in the trial when a disclosure is made ... is not in
itself determinative of timeliness,” even if the witness in question has completed her testimony,
as “the trial itself [i]s far from over.” Id at 636 (quoting United States v. Darwin. 757 F.2d
1193, 1201 (11th Cir. 1985)).
The victim’s statements that the appellant characterizes as prior inconsistent statements
were disclosed to him either before or during trial.9 On the first day of trial, the victim testified
that the appellant had made her put her mouth on his penis and threatened her sister. The
appellant objected based on Brady. After discussion between counsel and the trial judge
\
regarding the Brady challenge, the appellant cross-examined the victim. He asked her about the
threats to her sister and highlighted that she had not reported that information earlier. In
addition, the appellant asked the victim why she had told the forensic interviewer that the
appellant had not done “something to any other part” of her body.
On the second day of trial, the prosecutor reported that the victim had also mentioned that
the appellant asked her for sex on the mbrning after the sexual abuse. In light of the Brady

9 The Commonwealth disclosed some statements related to oral sex to the appellant
before trial. During pre-trial discovery, the Commonwealth provided the appellant with the
recorded statement of the victim that he had forced her to do “something” with her mouth to his
body. Similarly, the Commonwealth informed the appellant by email that the victim alleged that
he had touched her breasts and “butt” with his tongue.
-9-

challenge, the court provided the appellant with the opportunity to cross-examine the victim
further regarding the purportedly inconsistent statements. The appellant did not exercise the
option to recall the victim. Nor did he request a recess or continuance to review his strategy in
light of that information. Thus, the appellant had the opportunity to make effective use of the
evidence of the statements at trial and chose not to do so. He also failed to request a recess or
continuance in order to consider whether his trial strategy should be altered in light of the
complete information. Consequently, no Brady violation occurred.10 See id. at 635-37.
3. The Stepmother’s Observations
The appellant’jiast.contention is that the Commonwealth committed a Brady violation .
by its late disclosure of the stepmother’s report of the victim’s demeanor on the night of the
incident.
Evidence is not suppressed for Brady purposes when the Commonwealth discloses it in
time for effective use by the defense at trial. See Tuma. 285 Va. at 637. The Commonwealth
disclosed the stepmother’s statement by email shortly before trial. In fact, the appellant called
the stepmother as a defense witness. She testified that she noticed nothing amiss when she
checked on the victim upon returning home from work at around midnight on November 2,
2015.
The record shows that the Commonwealth disclosed this information before trial and that
the appellant made use of it. Thus, the Commonwealth did not suppress this evidence pursuant
to Brady.11 See, e.g., Lovitt v. True, 403 F.3d. 171, 184 (4th Cir. 2005); Tuma, 285 Va. at 637.
In conclusion, the appellant has failed to establish a violation of his due process
protections set forth in Brady. The victim’s inability to identify the underwear was not favorable

10 See supra note 8.
11 See supra note 8.
- 10-

to the appellant. Further, the record does not demonstrate, for purposes of a Brady analysis, that
the Commonwealth suppressed the purportedly inconsistent statements made by the victim or the
stepmother’s report that she noticed nothing wrong on the night of the offenses. Accordingly,
the trial court did not err in denying the appellant’s motions to dismiss or for a new trial.12
B. Admissibility of Evidence
On appeal, this Court “reviews a trial court’s ruling admitting or excluding evidence for
abuse of discretion.” Payne v. Commonwealth, 292 Va. 855. 866 12016'). “This bell-shaped
curve of reasonability governing our appellate review rests on the venerable belief that the judge
closest to the contest is the judge best able to discern where the equities lie.” Du v.

.

Commonwealth. 292 Va. 555, 564 (2016) (quoting Sauder v. Fereuson. 289 Va. 449, 459
(2015)). A reviewing court can conclude that “an abuse of discretion has occurred” only in cases
in which “reasonable jurists could not differ” about the correct result. Commonwealth v. Swann.
290 Va. 194, 197 (2015) (quoting Grattan v. Commonwealth. 278 Va. 602, 620 (2009)). “[B]y
definition,” however, a trial court “abuses its discretion when it makes an error of law.”
Robinson v. Commonwealth. 68 Va. App. 602, 606 (2018) (quoting Dean v. Commonwealth. 61
Va. App. 209,213 (2012)).
“The proponent of the evidence bears the burden of establishing ... the facts necessary to
support its admissibility.” Perry v. Commonwealth. 61 Va. App. 502, 509 (2013) (quoting Bell
v. Commonwealth. 49 Va. App. 570, 576 (2007)). “The measure of the burden of proof with
respect to factual questions underlying the admissibility of evidence is proof by a preponderance

12 In light of the conclusion that no Brady violation occurred, we do not address the
appellant’s contention that dismissal or a new trial were the only appropriate avenues for relief.
See generally Novak v. Commonwealth. 20 Va. App. 373, 389 (1995) (“The remedial relief to be
granted by the trial court following a discovery violation or upon the late disclosure of evidence
is within the trial court’s discretion and will not be disturbed on appeal unless plainly wrong.”
(quoting Moreno v. Commonwealth, 10 Va. App. 408, 420 (1990))).
- 11 -

of the evidence.” Atkins v. Commonwealth, 68 Va. App. 1, 9 (2017) (quoting Bloom v.
Commonwealth. 262 Va. 814, 821 (2001)). Once this threshold for proving admissibility has
been met, any gaps in the evidence are relevant to the trier of fact’s assessment of its weight
rather than its admissibility. See Kettler & Scott. Inc. v. Earth Tech. Cos.. 248 Va. 450, 459
(1994).
The appellant suggests that the pair of girl’s underwear and related DNA evidence were
irrelevant because the circumstances did not connect the underwear to the offenses charged. He
also argues that the Commonwealth provided “no foundation” that the victim wore that pair of
underwear “on the night of the alleged assault.” On these bases he argues that the evidence
should not have been admitted. We disagree.
1. Relevance
, Evidence relating to a point properly at issue in a case is relevant and, therefore,
admissible if it has “any logical tendency, however slight,” to establish that point. Ragland v.
Commonwealth. 16 Va. App. 913, 918 (1993). ‘“Relevant evidence’ means evidence having any
tendency to make the existence of any fact in issue more probable or less probable than it would
be without the evidence.” Va. R. Evid. 2:401. “The scope of relevant evidence in Virginia is
quite broad, as ‘[e]very fact, however remote or insignificant, that tends to establish the
probability or improbability of a fact in issue is relevant.’” Commonwealth, v. Proffitt. 292 Va.
626, 634 (2016) (alteration in original) (quoting Va. Elec. & Power Co. v. Dungee. 258 Va. 235
260 (1999)). In order to be admissible as relevant, evidence must “tend[] to prove a matter that
is properly at issue in the case.” Icf at 635 (alteration in original) (quoting Brugh v. Jones, 265
Va. 136, 139(2003)).
The pair of girl’s underwear was found in the appellant’s home less than two days after
the occurrence of the sex offenses for which the appellant was charged. The undeiwear was the
- 12-

victim’s size and directly beneath shorts that matched the victim’s description of those that she
wore on the night of the crimes. A mixture of genetic material to which both the appellant and
the victim contributed was found on the crotch of the underwear. These facts and circumstances
tended to prove that the victim wore the underwear on the night of the offenses and the
appellant’s DNA was transferred to her body. Thus, the underwear, and the related DNA
analysis, constituted relevant evidence to corroborate the victim’s testimony that the appellant
sexually assaulted her, and they were admissible for that purpose.
2. Foundation
“A proper foundation must be laid for the introduction of all evidence.” Sabo v. _ .
Commonwealth. 38 Va. App. 63, 79 (2002) (quoting Horsley v. Commonwealth. 2 Va. App.
335, 338 (1986)). The burden is on the party offering the evidence, in this case the
Commonwealth, “to show with reasonable certainty that there has been no alteration or
substitution of it.” hi (quoting Horsley. 2 Va. App. at 338).
Viewing the entire record, the Commonwealth presented evidence sufficient to establish
an adequate foundation for this evidence to be admitted. Detective Jones collected the
underwear less than two days after the offenses occurred. He found it in the laundry pile with
the victim’s other clothing that she wore on the night of the assaults. In addition, the pair of
underwear was the victim’s size, and the only other child in the house was the victim’s sister,
who wore underwear four sizes smaller. Further, viewing the evidence in the light most
favorable to the Commonwealth, the victim’s DNA was found on the inside crotch of the
underwear. The appellant challenges the factual inference that the underwear in fact belonged to
the victim or that she wore it on the night of the assaults based on the possibility that the DNA
was transferred to the underwear from other clothing in the laundry pile. However, the
Commonwealth met its burden of proving by a preponderance of the evidence that the underwear
- 13 -

belonged to the victim and was worn by her on the night of the assaults. See Bloom. 262 Va. at
821. Since “this threshold for proving admissibility” was met, the appellant’s challenges to the
probative value of the underwear and related DNA evidence goes to the trier of fact’s assessment
of weight rather than admissibility. See Kettler. 248 Va. at 459.
For these reasons, the trial court acted properly within its discretion by admitting the
underwear and the DNA test results of the genetic material collected from the underwear into
evidence.
III. CONCLUSION
Weholdjhatjhe alleged late disclosures ofeyjdencedidnotvioktelherequirements of
Brady. Further, the trial court did not err in admitting the underwear and related DNA evidence.
Accordingly, we affirm the appellant’s convictions for object sexual penetration of a child and
taking indecent liberties with a child.
Affirmed.

- 14-

VIRGINIA:
In the Court offtp-peaCs of Virginia on Thursday

the 12th day of December, 2019.

Charjes Erskine Church,
against

Appellant,

Record No. 0264-18-2
Circuit Court Nos. CR17-F-2279 and CR17-F-2280

Commonwealth of Virginia,

Appellee.
Upon a Petition for Rehearing En Banc
Before the Full Court

On consideration of the petition of the appellant to set aside the judgment rendered herein on the
12th day ofNovember, 2019 and grant a rehearing en banc thereof, the said petition is denied on the grounds
that there is no dissent in the panel decision, no member of the panel has certified that the decision is in
conflict with a prior decision of the Court, nor has a majority of the Court determined that it is appropriate to
grant the petition for rehearing en banc in this case. Code § 17.1-402(D).

A Copy,
Teste:

By:

A
fXd

Cynthia L. McCoy, Clerk
£

f

/

Deputy Clerk

A
ri

VIRGINIA:
3n the Supreme Gawd of, Vvtgima held at the Sup Kerne Gaunt {RuiCdiny in the
Gity of {Richmond an ffhwcdday the 30th day of ]uty, 2020.
Charles Erskine Church,
against

Appellant,

Record No. 200031
Court of Appeals No. 0264-18-2

Commonwealth of Virginia,

Appellee.
From the Court of Appeals of Virginia

Upon review of the record in this case and consideration of the argument submitted in
support of the granting of an appeal, the Court refuses the petition for appeal.
And it is ordered that the Commonwealth recover of the appellant the costs in this Court
and the costs in the courts below.
Justice Chafin took no part in the resolution of the petition.
Costs due the Commonwealth
by appellant in Supreme
Court of Virginia:
Public Defender

$950.00 plus costs and expenses
A Copy,
Teste:
Douglas B. Robelen, Clerk
By:
Deputy Clerk

VIRGINIA:
3ti the Supnzme Gaunt of. Virginia held at the Supreme daunt Hhulditiy in the
ditg of, OUchmand on Htniday the 9th day of. Octahen., 2020.

I

Charles Erskine Church.

I

against

Appellant,

Record No. 200031
Court of Appeals No. 0264-18-2

!

Commonwealth of Virginia.

Appellee.

i

i!

Upon a Petition for Rehearing
On consideration of the petition of the appellant to set aside the judgment rendered herein
on July 30, 2020 and grant a rehearing thereof, the prayer of the said petition is denied.
I

J ustice Chaftn took no part in the resolution of the petition.
A Copy,
Teste:
Douglas B. Robelen, Clerk

i

By:

1

Deputy. Clerk

1

' I

j

